OIG Investigative Reports, Former President Of Proprietary School Sentenced to 18 Months in Prison
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
FOR IMMEDIATE RELEASE:
April 10, 2009
U.S. Department of Justice
United States Attorney
Eastern District of Pennsylvania
615 Chestnut Street
Suite 1250
Philadelphia, Pennsylvania 19106-4476
Contact: (215) 861-8200
Former President Of Proprietary School Sentenced to 18 Months in Prison
PHILADELPHIA - James Mannion, 62, of Palm Harbor, Florida, was sentenced to 18
months in prison yesterday for his role in a conspiracy to falsify documents with intent to
obstruct the U.S. Department of Education, announced United States Attorney Laurie Magid.
Mannion was indicted in October 2008 with two other defendants. In December 2008, he
pleaded guilty to conspiring to defraud the U.S. Department of Education and to obstruct a
federal audit. From 2001 to 2005, Mannion was President of the Harrison Career Institute (HCI),
a for-profit proprietary school with locations in Pennsylvania, New Jersey and Delaware. HCI,
while enrolling students in courses, depended heavily on federal student financial aid through the
Title IV programs, such as Pell grants and Direct Loans. Mannion, along with the two codefendants
who were also HCI employees, fabricated documents and forged student signatures
(including Leave of Absence requests /Verification and tax documents) in order to make the files
appear compliant with federal regulations.
In addition to the 18-month prison term, United States District Judge Stewart
Dalzell ordered Mannion to pay restitution to the U.S. Department of Education in the amount of
$115,128.
"School officials who handle Title IV funds clearly risk a jail sentence if they falsify
documents or fabricate information in connection with these financial aid programs," said Magid.
This case was investigated by the United States Department of Education's Office of
Inspector General. The United States Department of Education's office of Federal Student Aid
also provided assistance. The case was prosecuted by Assistant United States Attorney Denise S.
Wolf.
Media ContactPATTY HARTMAN
215-861-8525
Printable view
Share this page
Last Modified: 04/16/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov